         AUDIT OF
  THE WORKPLACE, INC.’S
  H-1B TECHNICAL SKILLS
     TRAINING GRANT
   NUMBER AL-10854-00-60
MARCH 27, 2000 TO JUNE 30, 2001




              U.S. DEPARTMENT OF LABOR
              OFFICE OF INSPECTOR GENERAL

              REPORT NO: 02-02-207-03-390
              DATE:      March 26, 2002
                                        TABLE OF CONTENTS




ACRONYMS ....................................................................................................................................i

EXECUTIVE SUMMARY .............................................................................................................1

INTRODUCTION ...........................................................................................................................3

          BACKGROUND .................................................................................................................3

          AUDIT OBJECTIVES .........................................................................................................4

          AUDIT SCOPE AND METHODOLOGY..........................................................................4

FINDINGS AND RECOMMENDATIONS

          I.     PROGRAM IMPLEMENTATION..............................................................................5

          II. PROGRAM OUTCOMES .........................................................................................11

          III. REPORTED OUTLAYS ............................................................................................13

APPENDIX

           THE WORKPLACE’S RESPONSE TO DRAFT REPORT.............................................15
                        ACRONYMS


ACWIA   American Competitiveness and Workforce Improvement Act of 1998

CFR     Code of Federal Regulations

FSR     Financial Status Report

NSSB    National Skills Standards Board

OMB     Office of Management and Budget

PIC     Private Industry Council

USDOL   U.S. Department of Labor

WIA     Workforce Investment Act

WIB     Workforce Investment Board




                                   i
                                 EXECUTIVE SUMMARY


The U.S. Department of Labor (USDOL), Office of Inspector General, conducted a performance
audit of The WorkPlace, Inc.’s H-1B technical skills training grant for the interim period March
27, 2000 through June 30, 2001. The overall audit objective was to evaluate if The WorkPlace
was meeting the intent of the H-1B Technical Skills Training Program and the requirements of
its grant. The subobjectives were to determine if:

   •       The project had been implemented as stated in the grant.

   •       Program outcomes were measured, achieved, and reported.

   •       Reported outlays were reasonable, allocable, and allowable in accordance with applicable
           Federal regulations, and Office of Management and Budget (OMB) Circular A-122, Cost
           Principles for Non-Profit Organizations.

The H-1B Technical Skills Training Program was designed to help U.S. workers acquire the
technical skills for occupations that are in demand and being filled by foreign workers holding
H-1B visas. USDOL awarded The WorkPlace $1,500,000 to operate an H-1B Technical Skills
Training Program for the period March 27, 2000 to March 27, 2002. The WorkPlace is a
nonprofit corporation that serves as the local Workforce Investment Board (WIB) for Fairfield
County, Connecticut.

AUDIT RESULTS

As of June 30, 2001, The WorkPlace has not been successful in meeting the intent of the H-1B
Technical Skills Training Program and the requirements of its grant.

       •     The WorkPlace did not implement what it had proposed and agreed to do in the grant.
             Certified skills centers that were established did not provide training structured on
             National Skills Standards Board (NSSB) standards and delivered by certified
             instructors. Since NSSB had not yet developed standards, The WorkPlace should have
             developed alternative standards that could be tracked and measured. Further, the
             training provided was either non-technical or contained company-specific information
             not to be shared with non-employees. Training was not limited to individuals in the
             geographic region covered by the grant and was provided only to incumbent workers of
             the participating companies.

             Training did not result in NSSB certification, college credit or additions to lifelong
             resumes. Though the courses given were successful in meeting corporate needs, The
             WorkPlace has not met the intent of the grant to establish ongoing certified skills
             centers that train participants in the local area in technical skills for which H-1B visas
             were being granted.



                                                     1
       •     The WorkPlace has not measured, accomplished and reported program outcomes as
             stated in the grant.

       •     We question $140,000 or 14 percent of the cumulative Federal share of net outlays
             claimed on the Financial Status Report (FSR) for the period ending June 30, 2001.
             Training costs of $140,000 did not relate to technical skill subjects, as required by the
             American Competitiveness and Workforce Improvement Act of 1998 (ACWIA).

            Furthermore, the matching requirement of 50 percent was not being met as of
            June 30, 2001. Future costs may have to be questioned if the matching requirement is
            not satisfied.

Recommendations

We recommend that the Assistant Secretary for Employment and Training recover questioned
costs of $140,000 and ensure that The WorkPlace operates the project in accordance with the
intent and requirements of its grant.

The WorkPlace’s Response

On March 6, 2002, the President and Chief Operating Officer responded to our draft report
which contained questioned costs of $332,687. He stated:

   •       At the time of the audit, nine months remained in the grant award and an
           extension of the ending date had been requested.

   •       Changes had occurred in the regulations governing this program either
           during or right after the fieldwork completed, that were not reflected in the
           audit.

   •       At the time the grant was written, the employers involved anticipated
           National Skills Standards would be available. During the period in
           question, the National Skills Standards Board had not established standards
           thus reporting any outcome data relating to NSSB skills standards and/or
           certifications is not possible.

   •       Corrective action had begun to remedy some discrepancies in the
           employer’s billing, counting of participants and reporting on the Financial
           Status Report.

Based on the response to the draft report, we have eliminated questioned administrative costs of
$192,687. Subsequent to the end of fieldwork, The WorkPlace and all other first round grantees,
received grant modifications which retroactively allowed administrative costs (not to exceed 10
percent of grant funds).

Excerpts of The WorkPlace’s response to the draft report have been incorporated into
appropriate sections of the report. The response is included in its entirety as an Appendix.


                                                    2
                                         INTRODUCTION


                   The American Competitiveness and Workforce Improvement Act of 1998
BACKGROUND         (ACWIA) was enacted to help employed and unemployed U.S. workers
                   acquire the technical skills for occupations that are in demand and being filled
by H-1B visa holders. The H-1B program allows employers to temporarily employ foreign
workers on a nonimmigrant basis to work in specialized jobs not filled by U.S. workers
(8 U.S.C. 1101(a)(15)(H)(i)(b)). A $1,000 user fee is imposed on employers for H-1B
applications. ACWIA provides that over half of that fee is used to finance the H-1B Technical
Skills Training Program administered by USDOL.

H-1B technical skills training grants are demonstration grants awarded under the authority of
Title IV-D of the Job Training Partnership Act and Title I-D of the Workforce Investment Act
(WIA). As of December 31, 2001, USDOL had conducted four rounds of grant competition and
awarded 52 grants totaling approximately $120 million.


                        Grant  Solicitation     Number                      Award
                        Round       Date       of Grants                    Amount
                          1   August 16, 1999       9                     $12,383,995
                          2   March 29, 2000       12                     $29,166,757
                          3   August 1, 2000       22                     $54,000,000
                          4   April 13, 2001        9                     $24,394,8011
                                         Total     52                    $119,945,553


In round one, The WorkPlace was awarded $1,500,000 under Grant Number AL-10854-00-60,
for the period March 27, 2000 to March 27, 2002. The WorkPlace proposed and agreed to train
participants in skills certified by the NSSB. 2 This training was to take place at certified skills
centers located at participating companies. Pepperidge Farm, Pitney Bowes, and Computronix
are the participating companies in this H-1B grant.

Incorporated in 1983, The WorkPlace is a not for profit corporation under section 501(c)(3) of
the Internal Revenue Code. The WorkPlace administers job training and job preparation
activities funded by state and Federal agencies and coordinates training and education programs
for 20 communities in Fairfield County, Connecticut. The WorkPlace functions as the local WIB
for Fairfield County, and is also the substate grantee under the WIA Dislocated Worker Program.




1
  As of December 31, 2001, Round 4 was still an open solicitation.
2
  The NSSB is a coalition from business, labor, employee, education, and community and civil rights organizations
that was created to build a system of skill standards, assessment and certification systems.


                                                        3
                        The overall audit objective was to evaluate if The WorkPlace was
AUDIT OBJECTIVES        meeting the intent of the H-1B Technical Skills Training Program and
                        the requirements of its grant. The subobjectives were to determine if:

   •   The project had been implemented as stated in the grant.

   •   Program outcomes were measured, achieved, and reported.

   •   Reported outlays were reasonable, allocable, and allowable in accordance with applicable
       Federal regulations, and OMB Circular A-122, Cost Principles for Non-Profit
       Organizations.


                         The interim audit period was March 27, 2000 through June 30, 2001.
AUDIT SCOPE AND          In performing this audit, we reviewed the Solicitation for Grant
M ETHODOLOGY             Applications and the grant agreement to determine the requirements
                         and performance measures of the grant. We conducted interviews with
the staff of The WorkPlace, JobLink (the local one-stop operator), Pitney Bowes and Pepperidge
Farm (participating companies). We made onsite visits to Pitney Bowes and Pepperidge Farm.

We audited cumulative net outlays of $1,016,113, consisting of the Federal share of $610,962
and third party in-kind contributions of $405,151, claimed on the FSR for the period ending
June 30, 2001. We traced expenditures to general ledgers and examined supporting
documentation including vouchers and invoices. Judgmental sampling was used to test
individual account transactions and balances.

Compliance with laws, regulations, and grant agreement provisions is the responsibility of The
WorkPlace. We performed tests of compliance with certain provisions of laws, regulations, and
the grant to evaluate if The WorkPlace was meeting the requirements of the grant. However, our
objective was not to provide an opinion on overall compliance with such provisions, and
accordingly, we do not express such an opinion. We examined compliance with grant
requirements and program outcomes goals using the Solicitation for Grant Applications and the
grant agreement. We evaluated allowability of claimed costs using relevant criteria including:
ACWIA; 29 CFR 95, Grants and Agreements with Institutions of Higher Education, Hospitals,
and Other Non-Profit Organizations; OMB Circular A-122, Cost Principles for Non-Profit
Organizations; and the requirements of the grant.

We conducted our performance audit in accordance with Government Auditing Standards, issued
by the Comptroller General of the United States, and included such tests as we considered
necessary to satisfy the objectives of the audit. We conducted fieldwork from June 21, 2001 to
August 9, 2001, at The WorkPlace located in Bridgeport, Connecticut. Visits were made to
Pitney Bowes in Stamford, Connecticut, on July 12, 2001, and to Pepperidge Farm in Norwalk,
Connecticut, on July 13, 2001.



                                               4
               FINDINGS AND RECOMMENDATIONS


I. PROGRAM IMPLEMENTATION

As of June 30, 2001, The WorkPlace did not implement what it had proposed and agreed
to do in the grant. Certified skills centers that were established did not provide training
structured on NSSB standards and delivered by certified instructors. Further, the training
provided was either non-technical or contained company-specific information not to be
shared with non-employees. Training was not limited to individuals in the geographic
region covered by the grant and was provided only to incumbent workers of the
participating companies.

Training did not result in NSSB certification, college credit, or additions to lifelong
resume′s. Though the courses given were successful in meeting corporate needs, The
WorkPlace has not met the intent of the grant to establish ongoing certified skills centers
that train participants in the local area in technical skills for which H-1B visas were being
granted.

ACWIA section 414 (c)(1) states:

        . . . the Secretary of Labor shall use funds available under section
       286(s)(2) to establish demonstration programs or projects to provide
       technical skills training for workers. . . .


CERTIFIED S KILLS        The cornerstone innovation for the grant was the establishment
CENTERS                  of certified skill centers. The grant agreement states that:

       . . . Each participating company has agreed to be designated as a
       Certified Skills Center. This designation requires the following: a) all
       training is structured on NSSB standards; b) all training results in formal
       certification in NSSB skills; c) all training results in college credit
       (curricula is State credit approved); d) all training results in additions to
       a lifelong resume; e) all certification in skills competency is maintained in
       a site database and that data is shared with the Substate grantee for the
       purpose of maintaining a workforce certification database; f) all
       instruction is delivered by trainers who themselves are certified in the
       NSSB skills as well as are certified as instructors by the State (for college
       credit purposes).

The WorkPlace did not comply with any of the above requirements for certified skills
centers. This condition was caused by the following factors:




                                              5
   •   The NSSB had not established standards by March 27, 2000, the start of the grant,
       and only had begun to set standards in May 2001.

   •   The WorkPlace did not comply with the Solicitation for Grant Applications
       requirement that it “ . . . spell out career paths which will help individuals acquire
       the high proficiency levels explicitly and implicitly contained in the H-1B
       occupations. . . .” Specifically, The Workplace did not develop individual and
       group training plans that identify occupations or skills in which workers were to
       be trained. The WorkPlace was unable to document how the courses given for
       workers at Pitney Bowes and Pepperidge Farm satisfy a need in occupations in
       which H-1B applications were being granted.

   •   The WorkPlace did not take the necessary steps to arrange college credit courses
       that were taught by certified instructors.

   •   Grant funds that were used for the rental of rooms and overnight travel could have
       been put to better use. In the budget narrative of the grant agreement, The
       WorkPlace stated that no monies were budgeted for travel and equipment.
       However, Pepperidge Farm was reimbursed $140,000 of which 77.7 percent was
       for travel and overnight accommodations ($81,480 or 58.2 percent), and for the
       one-time rental of training rooms and equipment ($27,300 or 19.5 percent).


                           The type and length of training varied among the participating
TRAINING PROVIDED          companies. Training provided was either non-technical or
                           contained proprietary information not to be shared with non-
employees. Pepperidge Farm provided non-technical training and Pitney Bowes
provided training of a proprietary nature. Computronix sent their employees to a local
community college. However, Computronix participants represent less than 1 percent of
all participants served.

Pepperidge Farm

The WorkPlace paid $140,000 to Pepperidge Farm for training. All of this training was
for non-technical skills. The non-technical skills training courses at Pepperidge Farm
were: diversity, diversity for leaders, presentation skills, basic selling, anti- harassment,
interviewing skills, and coaching skills. Diversity or anti- harassment training made up
78 percent of the training.

Practically all of the classes were 2 to 4 hours in duration (with the exception of an
8-hour coaching skills course attended by 17 students). Seventy-nine percent of the
participants attended only one class, and of those, 85 percent attended only anti-
harassment or diversity training. These non-technical courses are of the type that any
organization would provide to its employees. They were not specific to H-1B



                                               6
occupations and should not be funded by this grant. In addition, no college credit was
awarded for these courses.

Pitney Bowes

The grant was designed to test skill transferability. However, the training given by Pitney
Bowes, although in technical skills subjects, contained proprietary information, and,
therefore, was not intended to be shared with unemployed workers or individuals
employed outside the company. Pitney Bowes was in the process of retooling for the
manufacture of electronic rather than mechanical products, and it was necessary to train
its workers in appropriate new skills, a training process that was in effect prior to the
H-1B grant.

Classes at Pitney Bowes varied from 4 to 60 hours and 89 percent of the participants
attended only one class.

Computronix

Although Computronix is a participating H-1B company, it was not designated as a
certified skills center, as was proposed for all H-1B companies. Information technology
training was provided to Computronix employees at Norwalk Community College for
$7,500. Training consisted of a 40- hour course.


                      Training was not limited to individuals in the geographic region
PARTICIPANTS          covered by the grant and was provided only to incumbent workers
SERVED                of the participating companies.

Participants Outside the Geographic Region

The grant is for individuals located in the local geographic region. The WorkPlace is the
WIB of Southwestern Connecticut. The grant agreement states: “The project has been
designed to effectively remedy the current skill shortages, and reduce the region’s
reliance on visa exceptions to fill H-1B occupations.”

The grant agreement further states, “Pepperidge Farm will provide a certified skill center
at its Norwalk operations.” However, Pepperidge Farm trained its salespersons and
regional managers who were stationed across the country. The company held most of its
training in places far from its corporate location. Of the 51 training sessions held by
Pepperidge Farm, only 7 were held at a Pepperidge Farm facility, 10 were held at
Connecticut hotels, and 34 were held at hotels throughout the country.

Pitney Bowes and Computonix trained participants in the local geographic region.




                                             7
Participant Employment Status

In the grant agreement, The WorkPlace projected that: “A total of 540 will be served by
the project. Of these, 50 are planned to be unemployed, 70 underemployed, and 420
incumbent workers.” At the end of fieldwork, all those trained were incumbent workers;
none were unemployed or underemployed.

Although The WorkPlace reported that 1,765 participants completed each course, we
determined the unduplicated number of incumbent workers taking a course to be 1,288.

                       Pepperidge Farm            525
                       Pitney Bowes               754
                       Computronix                  9

                               Total           1,288


                          The grant agreement states:
SUSTAINABILITY

       The creation of formal employer-based skills centers will encourage the
       sustainability of the project and its continuation beyond the termination of
       this specific project.

The WorkPlace has not met the intent of the grant in establishing ongoing certified skills
centers that train participants in the local area in technical skills for which H-1B visas
were being granted.

Recomme ndations

We recommend that the Assistant Secretary for Employment and Training ensure that
The WorkPlace operates the project in accordance with the requirements and intent of the
grant. Specifically, the Assistant Secretary should ensure that The WorkPla ce:

   •   establish certified skills centers that provide technical skills training by certified
       instructors in H-1B career paths;

   •   develop individual and group training plans which identify needed skills and
       occupations;

   •   target the training to serve participants located within the geographic region; and

   •   make training available to other than incumbent employees.




                                              8
Excerpts of The WorkPlace’s response and OIG’s conclusions on specific issues are
presented below.

1. Certified Skills Centers

   The WorkPlace’s Response

   . . . It was intended that Pitney Bowes and Pepperidge Farm would both create skill
   centers where shared training would be made available. . . . Pitney Bowe’s progress
   was hindered by the provision of proprietary skills training required by the
   implementation of the new, technology-based operating system. . . . Pepperidge
   Farm is currently developing its spring skills schedule that will be open for grant
   participation. . . .

   Just as developing and implementing H-1B programs is new to the employment and
   training field, developing “formal” career ladders with individual plans for employee
   development is a relatively new concept for many employers. . . .

   Until such time as NSSB skills measures and certification methods are available,
   certified skills centers cannot be established. . . .

   The WorkPlace will continue toward obtaining college credit for accredited training
   provided. . . .

   OIG’s Comments

   Pitney Bowe’s provision of proprietary skills training pre-dates the grant and was
   known prior to the grant proposal. The WorkPlace should have reviewed Pepperidge
   Farm’s courses for technical skills content prior to training.

   We agree that the absence of established NSSB standards was beyond the control of
   The WorkPlace. However, we believe that The Workplace and its corporate partners
   should have created an alternative system, including career ladders, that indicates
   what training was needed to accomplish stated goals.

   The WorkPlace provided no documentation that any participants have received
   college credit for the training they received.




                                           9
2. Training Provided

   The WorkPlace’s Response

   . . . non-technical skills were an appropriate activity to be provided through grant
   funding. The WorkPlace, however has requested, and received as of this response
   date, a revised billing from Pepperidge Farm replacing the non-technical training
   costs reimbursed with technical training it provided to employees. . . .

   OIG’s Comments

   Submitted documentation was not sufficient to establish the technical nature of the
   training costs claimed in the revised billing.

3. Participants Served

   The WorkPlace’s Response

   A revised billing has been received from Pepperidge Farm replacing the out-of-
   region employees with in-region employees. All grant-funded training is being
   provided to employees within the grantee’s region.

   Enrollment of under-employed and unemployed individuals is in modification to be
   replaced by increasing the number of incumbent workers to be trained . . .

   OIG’s Comments

   Submitted documentation was not sufficient to establish the geographic location of
   participants trained. It is still a requirement of the grant that other than incumbent
   workers be trained.




                                            10
II. PROGRAM OUTCOMES

As stated in the grant, the overall outcome measure is to:

       . . . reduce the number of H-1B visa exceptions in the region. The
       outcomes (all of which are measurable) include placement rates (both into
       H-1B and H-1B career path occupations), cost of service, reduction of
       unemployment, NSSB skills certificates issued, college or equivalent credit
       issued, and a comparison of wages before and six months following the
       completion of training.

The WorkPlace has not measured, accomplished and reported outcome measures as
stated in the grant. The WorkPlace could not demonstrate how courses provided for
workers at Pitney Bowes and Pepperidge Farm constitute H-1B career paths and met
NSSB skill levels. (See Finding I for details.) As a result, it is difficult to establish a
correlation between the training provided and a reduction of H-1B dependence in the
local area. Further, since neither Pitney Bowes nor Pepperidge Farm was reliant on H-1B
workers prior to the grant, it would also be difficult to make any such correlation at the
company level.

The grant further identifies five broad outcome categories: number of participants,
measurable effects, customer satisfaction, employer-specific measurable effects, and
other additional measurable performance-based outcomes. These 5 outcome categories
detail 31 specific outcome measures. Some outcomes that were proposed but not
measured, accomplished, and reported were:

       •   number of NSSB skills certified per trainee;

       •   college credit for accredited courses successfully completed and meet NSSB
           skills standards;

       •   creation of a lifelong resume′ maintained through a database;

       •   continued pursuit of training education post project;

       •   customer and program participant surveys; and

       •   cost comparison with other available service strategies.

Moreover, of the 31 specific outcome measures identified in the grant, many are difficult
to measure. Outcomes difficult to measure include, but are not limited to the following:




                                            11
       •   improved productivity and efficiency in job;

       •   improved quality output;

       •   increased probability for promotion;

       •   increase in firms profitability; and

       •   increase in workers’ competitive position in marketplace.

Recommendation

We recommend that the Assistant Secretary for Employment and Training ensure that
TheWorkPlace measure and report program outcomes.


The WorkPlace’s Response

. . . Most of the measures are outcome measures, where actual measurements
would not be available until the end of the grant period. Some of the measures
are no longer feasible as the NSSB standards that we anticipated using were not
available during the period. There were no formal mechanisms provided for
reporting the measures. . . .

A company’s decision to reduce their reliance on H 1 B visas is a long term goal
that cannot be completely solved with short term intervention. . . .

OIG’s Comments

The 31 specific outcome measures were proposed by The WorkPlace, and, therefore, it
was The WorkPlace that represented their measurability. Lacking NSSB standards,
alternative means should have been developed to track progress.

It is true that the reduction of the reliance on H-1B visas is a long-term goal. However, it
was not a long-term goal for Pitney Bowes or Pepperidge Farm, because neither company
was reliant on H-1B workers at the time they agreed to participate in The WorkPlace’s
program.




                                             12
III. REPORTED OUTLAYS

The WorkPlace claimed cumulative net outlays of $1,016,113, consisting of the Federal
share of $610,962 and third party in-kind contributions of $405,151, on the FSR for the
period ending June 30, 2001. These outla ys included payments of $140,000 to
Pepperidge Farm for costs for training which was not technical skills training, as required
by ACWIA. As a result, we question $140,000 or 14 percent of the costs claimed.

As of June 30, 2001, the matching requirement of 50 percent had not been met. Future
costs may have to be questioned if the matching requirement is not satisfied.



TRAINING COSTS - $140,000         ACWIA section 414 (c) states:

       . . . the Secretary of Labor shall use funds available under section 286(s)(2) to
       establish demonstration programs or projects to provide technical skills training
       for workers . . . [Emphasis added.]

The WorkPlace paid $140,000 to Pepperidge Farm for training related costs. These costs
were for the one time rental of training rooms and equipment ($27,300), travel and
overnight accommodations ($81,480), and actual training ($31,220). However, all the
training was in non-technical skill subjects. As a result, we question costs of $140,000
associated with non-technical skill training.

The non-technical skills training courses at Pepperidge Farm were: diversity, diversity for
leaders, presentation skills, basic selling, anti-harassment, interviewing skills, and
coaching skills. These non-technical courses are of the type tha t any organization
provides to its employees. The provided courses were not specifically tailored to H-1B
occupations.


                                The Solicitation for Grant Application states:
M ATCHING R EQUIREMENT

       No applicant may receive a grant unless that applicant agrees to provide
       resources equivalent to at least 50 percent of the grant award as a match. That
       match may be provided in cash or in kind.

The 50 percent requirement had not been met as of June 30, 2001. The WorkPlace
reported cumulative in-kind costs of $405,151 or 40 percent of the $1,016,113
cumulative total outlays reported on the FSR for June 30, 2001. The 50 percent
requirement must be satisfied by the end of the grant period.




                                            13
Moreover, since the non-technical skills training given to Pepperidge Farm employees is
a questioned cost, the salaries of the employees while attending that training should be
removed as a component of the in-kind cost calculation. This will have an adverse effect
on satisfying the matching requirement. Future grant costs may have to be questioned if
the matching requirement is not satisfied.

Recommendation

We recommend that the Assistant Secretary for Employment and Training recover
questioned costs of $140,000.

The WorkPlace’s Response

Pepperidge Farm submitted a billing for $288,000 on 5/14/2001 covering their entire
grant budgeted amount. $140,000 was paid to Pepperidge Farm as partial
reimbursement, recognizing their initial cash outlay of $288,000 and the timing of
training completed within the first 11 months of the grant. Given the nature of the skills
training provided, a revised billing asking for technical skills only, should have been
requested from Pepperidge Farm. . . .

In summary, the billing from Pepperidge Farm for $140,000 has been replaced to include
technical skills training provided to their employees through 9/30/01. . . .

The WorkPlace, Inc. fully intends to meet and exceed the 50% requirement for matching
federal funds. . . .

OIG’s Comments

Submitted documentation was not sufficient to establish the allowability of the revised
billing.




                                            14
15
The WorkPlace’s status related to meeting the 50 percent matching requirement was
included in the report merely as a reminder that the requirement must be met by the end
of the grant period.




                                           16
     APPENDIX




15
